IN THE SUPREME COURT OF THE UNITED STATES

Jacob Jones, et al.
Petitioner,
Case No. 20-83

VS.
Wayne Duke Kalbaugh,
Respondents.

MOTION FOR ENLARGEMENT OF TIME
COMES NOW, Respondent, Wayne Duke Kalbaugh, Doc# 450429, pro-se without the aid
or assistance of any trained or licensed counsel, with his motion pursuant to Rule 21 and moves
the Court for an order Extending Time to file a Brief in Opposition in accordance with Rule 30.3
to Petitioner's petition for writ of certiorari for 60 days. In support of said motion, Respondent
would show the court:
That a Brief in Opposition to Petitioner's petition for writ of certiorari is currently due on
Friday, August 28, 2020.
Respondent has not requested any previous applications for enlargement of time.
Respondent has not consulted with Petitioner(s) regarding this request as he is an inmate
acting pro-se and communication regarding such request is difficult.
North Fork Correctional Center is where Respondent, Wayne Duke Kalbaugh is currently
housed. N.F.C.C. also continues to have mishaps to include a resurgence of the Covid-19
virus, along with further inmate incidents causing his -lack of access to the prison law

RECEVED
AUG 1 9 2023
OFFICE OF THE CLERK I

ISUPREME COURT,
T I-1

library. As a direct result, inmates must now submit a Court mandated deadline in order
to visit the law library, unless unexpected situation's dictate no access during that week.
This Motion is made in good faith and not for the purpose of delay.
The case is in the early stages, so that this Enlargement will have no impact on the timing
of the case.
Respondent has numerous other pending cases with deadlines; Respondent is overwhelmed
at this time to say the least.
Respondent's request is not unreasonable, and should be granted.

Rule 30.3 Provides that Respondent may file motions to this Court, i.e. motion requesting
an enlargement of time, when made before the expiration of the specified period of time, may be
granted in the Court's discretion.

Respectfully Submitted, August 7, 2020
/s/
Wayne uke Kalbaugh Doc# 450429
N.F.C.C. / G-C-112
1605 EAST MAIN STREET
SAYRE, OKLAHOMA 73662

2

VERIFICATION
STATE OF OKLAHOMA )
ss.
COUNTY OF BECKHAM )

VERIFICATION / DECLARATION UNDER PENALTY OF PERJURY
Pursuant to 28 U.S.C. ยง 1746 the Respondent states under penalty of perjury and under the
laws of the United States that the foregoing is true and correct; that Respondent has read the
foregoing and affixed his signature hereto at North Fork Correctional Center on this 7th day of
August, 2020. 18 U.S.C. ยง 1621

CERTIFICATE OF SERVICE

I, Wayne Duke Kalbaugh, the undersigned hereby certify that on the 7th day of August, 2020, I
mailed a true and correct copy of the foregoing pursuant to Rule 29.2, U.S.C. ยง 1746 by placing
same into the institutional legal mailing system at the North Fork Correctional Center with postage
pre-paid thereon to:

Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
(202)479-3034

Mrs. Ambre Camille Gooch
Collins, Zorn & Wagner, P.C.
429 N.E. 50th Street, 2nd Floor
Oklahoma City, OK 73105
(405)524-2070

Respectfully Submitted this August 7, 2020.
/s /
Wayne uke Kalbaugh Doc# 450429
N.F.C.C. / G-C-112
1605 EAST MAIN STREET
SAYRE, OKLAHOMA 73662

3

